TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2006 Statutory Review of
                    Compliance With Legal Guidelines When
                                Issuing Levies



                                          August 4, 2006

                              Reference Number: 2006-30-101




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 4, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2006 Statutory Review of Compliance
                               With Legal Guidelines When Issuing Levies (Audit # 200630023)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has complied with 26 United States Code (U.S.C.) Section (§) 6330, Notice and
 Opportunity for Hearing Before Levy.1 The IRS Restructuring and Reform Act of 19982 requires
 the IRS to notify taxpayers at least 30 days before initiating any levy action to give taxpayers an
 opportunity to formally appeal the proposed levy. Specifically, we determined whether the IRS
 has sufficient controls in place to ensure taxpayers are advised of their right to a hearing at least
 30 days prior to levy action. This audit is statutorily required each fiscal year.

 Synopsis
 This is the eighth annual report the Treasury Inspector General for Tax Administration has issued
 in compliance with the IRS Restructuring and Reform Act of 1998 to determine whether the IRS
 is complying with legal guidelines over the issuance of levies. The IRS properly informed
 taxpayers of their appeal rights at least 30 days prior to issuing levies.
 Prior Treasury Inspector General for Tax Administration reports have recognized that the IRS
 has implemented tighter controls over the issuance of levies. This was due primarily to the



 1
   26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
 Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
 of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
 2
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                    Fiscal Year 2006 Statutory Review of Compliance With Legal
                                  Guidelines When Issuing Levies



development of systemic controls in both the Automated Collection System (ACS)3 and the
Integrated Collection System (ICS)4 to prevent a levy from being generated unless there were at
least 30 days between the date taxpayers received notice of their appeal rights and the date of the
proposed levy. Our testing of these controls indicated that they continue to function effectively.
Prior years’ reports5 also addressed the issue of revenue officers not always properly notifying
taxpayers of their appeal rights when issuing manual levies to seize taxpayer assets. Last year’s
report was the first report that showed revenue officers properly notified taxpayers of their
appeal rights.6 Our review this year of 44 ICS and 25 ACS manual levies issued between
October 1, 2004, and June 30, 2005, continued to show revenue officers and ACS employees
properly informed taxpayers of their rights at least 30 days prior to issuing the levies.

Recommendations
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance.
Copies of this report are also being sent to IRS officials. Please contact me at (202) 622-6510 if
you have questions or Daniel Devlin, Assistant Inspector General for Audit (Small Business and
Corporate Programs), at 202-622-8500.




3
  The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
returns from delinquent taxpayers who have not complied with previous notices.
4
  The ICS is an automated system used to control and monitor delinquent cases assigned to revenue officers in the
IRS field offices.
5
  Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected When Manual Levies Are Issued
(Reference Number 2004-30-094, dated April 2004) and The Internal Revenue Service Does Not Have Controls
Over Manual Levies to Protect the Rights of Taxpayers (Reference Number 2003-40-129, dated June 2003).
6
  Taxpayer Rights Are Being Protected When Levies Are Issued (Reference Number 2005-30-072, dated June 2005).
                                                                                                                2
                        Fiscal Year 2006 Statutory Review of Compliance With Legal
                                      Guidelines When Issuing Levies




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Controls Implemented to Protect Taxpayer Rights During the
          Issuance of Systemic Levies Are Operating Effectively ..............................Page 3
          Employees Properly Notified Taxpayers of Their Appeal
          Rights Prior to Issuing Manual Levies..........................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Example of Levy (Form 668-B) ..........................................Page 10
                     Fiscal Year 2006 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies




                                            Background

When taxpayers do not pay delinquent taxes, the Internal Revenue Service (IRS) has the
authority to work directly with financial institutions and other third parties to seize taxpayers’
assets. This action is commonly referred to as a “levy.” The IRS Restructuring and Reform Act
of 1998 (RRA 98)1 requires the IRS to notify taxpayers at least 30 days before initiating a levy
action to give taxpayers an opportunity to formally appeal the proposed levy.
The RRA 98 also requires the Treasury Inspector General for Tax Administration (TIGTA) to
annually verify the IRS is complying with the provisions. This is the eighth year in which we
have evaluated the controls over levies.
Two operations within the IRS issue levies to collect delinquent taxes:
    •   The Automated Collection System (ACS)2 function, where customer service
        representatives (CSR) contact delinquent taxpayers by telephone to collect unpaid taxes
        and secure tax returns.
    •   The Collection Field function (CFf), where revenue officers contact delinquent taxpayers
        in person as the final step in the collection process. Field contact becomes necessary
        when the ACS does not resolve the tax matter. Delinquent cases assigned to revenue
        officers in the IRS field offices are controlled and monitored with the Integrated
        Collection System (ICS).3
Both operations issue two types of levies: systemically generated levies and manual levies.
Previous TIGTA reports4 have recognized that the IRS has significantly improved controls over
the issuance of systemically generated levies. This was due primarily to the development of
systemic controls in both the ACS and ICS to prevent a levy from being generated unless there



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
returns from delinquent taxpayers who have not complied with previous notices.
3
  The ICS is an automated system used to control and monitor delinquent cases assigned to revenue officers in the
IRS field offices.
4
  The Internal Revenue Service Does Not Have Controls Over Manual Levies to Protect the Rights of Taxpayers
(Reference Number 2003-40-129, dated June 2003), The Internal Revenue Service Has Improved Controls Over the
Issuance of Levies, But More Should Be Done (Reference Number 2002-40-176, dated September 2002), The
Internal Revenue Service Complied With Levy Requirements (Reference Number 2001-10-113, dated July 2001),
and The Internal Revenue Service Has Significantly Improved Its Compliance With Levy Requirements (Reference
Number 2000-10-150, dated September 2000).
                                                                                                          Page 1
                    Fiscal Year 2006 Statutory Review of Compliance With Legal
                                  Guidelines When Issuing Levies



were at least 30 days between the date taxpayers received notice of their appeal rights and the
date of the proposed levy.
However, previous reports identified that additional controls were needed over manual levies
issued by revenue officers.5 In the April 2004 report, we recommended the IRS reconsider
requiring managers to review manual levies prepared by a revenue officer. The IRS declined to
implement this recommendation but did issue an ICS Alert on March 5, 2004, reminding
employees to ensure taxpayer rights are protected whenever a manual levy is issued. Last year’s
June 2005 report showed revenue officers properly notified taxpayers of their right to a hearing
when issuing manual levies.
This review was conducted at the Small Business/Self-Employed Division Headquarters in the
Collection office in New Carrollton, Maryland, during the period January through June 2006 in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
 Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected When Manual Levies Are Issued
(Reference Number 2004-30-094, dated April 2004) and The Internal Revenue Service Does Not Have Controls
Over Manual Levies to Protect the Rights of Taxpayers (Reference Number 2003-40-129, dated June 2003).
                                                                                                     Page 2
                  Fiscal Year 2006 Statutory Review of Compliance With Legal
                                Guidelines When Issuing Levies




                                 Results of Review

Controls Implemented to Protect Taxpayer Rights During the Issuance
of Systemic Levies Are Operating Effectively

Our review of systemically generated levies showed that
taxpayers’ rights were protected. The taxpayers were
                                                               Taxpayers were given notice
given notice of their appeal rights at least 30 days prior      of their appeal rights when
to the issuance of the levies.                                 systemic levies were issued.

ACS controls
The first step in the collection process involves mailing taxpayers a series of notices asking for
payment of delinquent taxes. If taxpayers do not comply, the majority of the accounts are
forwarded to an ACS Call Center where CSRs contact taxpayers by telephone to resolve their
accounts. If accounts cannot be resolved, CSRs have the authority to issue levies. See
Appendix IV for an example of a levy form.
Virtually all levies issued by CSRs are generated through the ACS, which contains a control
developed to comply with the RRA 98 that compares the date the taxpayer was notified of the
pending levy with the date requested for the actual issuance of the levy. If there are fewer than
30 days between the dates, the ACS will not generate a levy. This control is designed to ensure
taxpayers have been notified at least 30 days prior to the levy and have been informed of their
appeal rights for any systemically generated levy.
We tested the effectiveness of this control by reviewing a random sample of 30 systemically
generated levies issued through the ACS between October 1, 2004, and June 30, 2005. We
compared the date of the final notification letter to the date of the issuance of the levy. All
30 taxpayers were timely notified of their appeal rights. Therefore, the systemic controls in the
ACS Call Centers effectively protected taxpayers’ appeal rights.

ICS controls
Many times notices and telephone calls to taxpayers do not successfully resolve delinquent
accounts, and cases have to be assigned to revenue officers in CFf offices for face-to-face contact
with taxpayers. Cases assigned to CFf revenue officers are controlled on the ICS. Revenue
officers use the ICS to record collection activity on delinquent cases and generate enforcement
actions such as levies.

                                                                                              Page 3
                     Fiscal Year 2006 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



The IRS installed a control in the ICS similar to the control in the ACS that prevents levies from
being issued unless taxpayers have received 30 days’ notice and been informed of their appeal
rights. If fewer than 30 days have elapsed since the final notice date, the system will not
generate a levy.
We tested the effectiveness of this control by reviewing a random sample of 30 systemically
generated levies issued through the ICS between October 1, 2004, and June 30, 2005. We
compared the date of the final notification letter to the date of the issuance of the levy. All
30 taxpayers had received notification of their appeal rights at least 30 days prior to the levy.
Therefore, the systemic controls over levies issued by revenue officers in CFf offices effectively
protected taxpayers’ appeal rights.

Employees Properly Notified Taxpayers of Their Appeal Rights Prior
to Issuing Manual Levies
The second type of levy that both CSRs and revenue officers can issue is the manual levy. The
manual levy is issued outside the ACS and ICS automated processes and is not subject to
systemic controls.
Because manual levies are issued outside the ACS and ICS automated processes, an automated
audit trail for these actions is not produced. Therefore, it is impossible to reliably determine the
exact number of manual levies issued by either CSRs or revenue officers during our review
period. IRS management did inform us they believe manual levies are issued infrequently.
Although ACS CSRs primarily issue levies systemically, they may also issue manual levies
under certain circumstances, such as levies on Individual Retirement Arrangements and in
jeopardy situations.6 Manual levies require the same advance notification of the taxpayer as
systemic levies, except in cases involving jeopardy situations. IRS procedures require that
manual levies issued by CSRs be reviewed and approved by a manager prior to the levy being
issued. We consider this managerial review to be an effective
control.
                                                                                Our review of 25 ACS manual
We analyzed the open ACS case inventory to identify any            levies determined the IRS
manual levies issued between October 1, 2004, and                 protected taxpayers’ appeal
                                                                      rights in these cases.
June 30, 2005. Because there is no automated audit trail
produced for manual levies, we analyzed case history
comments for any references to a manual levy. Using this
methodology, we identified 25 instances in which a manual levy was issued to seize taxpayers’
assets. Our review of these 25 manual levies issued by CSRs showed the IRS adequately
protected taxpayers’ appeal rights.

6
 A “jeopardy situation” occurs when the IRS is concerned the taxpayer may attempt to hide or dispose of assets to
prevent enforced collection actions.
                                                                                                           Page 4
                    Fiscal Year 2006 Statutory Review of Compliance With Legal
                                  Guidelines When Issuing Levies



Revenue officers similarly issue levies systemically through the ICS in most cases. They are
also authorized to issue a manual levy on any case as needed. While managerial approval is
mandatory for manual levies issued by ACS employees, no review or approval is required when
revenue officers issue manual levies. Prior TIGTA reports have identified problems when IRS
employees issue manual levies.7 We believe there is a high risk associated with manual levies
because no review is required. In the past, we have recommended managerial approval be
required; however, the IRS has declined to implement an approval process. Instead, in response
to our reports, IRS management has issued specific instructions to remind revenue officers of the
30-day requirement.
We analyzed the ICS case inventory assigned to revenue
officers to identify any manual levies issued between               Our review of 44 ICS manual
October 1, 2004, and June 30, 2005. Because no automated             levies determined the IRS
                                                                    protected taxpayers’ appeal
audit trail is produced for manual levies, we analyzed case                    rights.
history comments for any references to a manual levy.
Using this methodology, we identified 44 cases in which a
manual levy was issued to seize taxpayers’ assets. In two
cases that were already closed, IRS management could not provide the documentation that
taxpayers received proper notification of their rights and were allowed sufficient time, as
mandated by the RRA 98, to appeal this action. In the remaining 42 cases, taxpayers received
proper notification of their rights. Due to the small number of errors, we do not have any new
recommendations for IRS management.




7
 Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected When Manual Levies Are Issued
(Reference Number 2004-30-094, dated April 2004) and The Internal Revenue Service Does Not Have Controls
Over Manual Levies to Protect the Rights of Taxpayers (Reference Number 2003-40-129, dated June 2003).
                                                                                                     Page 5
                     Fiscal Year 2006 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has complied with 26 United States Code (U.S.C.) Section (§) 6330, Notice and
Opportunity for Hearing Before Levy.1 To accomplish our objective, we:
I.      Determined whether the IRS maintained sufficient automated controls and procedures to
        ensure taxpayers had been advised of their right to a hearing at least 30 days prior to any
        levy action.
        A. Determined whether automated procedures to prevent levies from being issued in
           fewer than 30 days from the final notice date were still in place for the Automated
           Collection System (ACS)2 Call Centers and the Integrated Collection System (ICS)3
           and documented the current procedures.
        B. Selected a random sample of 30 ICS levies from the population of 214,207 levies
           issued between October 1, 2004, and June 30, 2005, from an extract of the ICS
           database of open cases as of January 2006. We analyzed Master File4 transcripts and
           the ICS record history for the selected sample cases and verified that taxpayers had
           been advised of their right to a hearing at least 30 days prior to any levy action. We
           did not use statistical sampling because, based on prior years’ testing, we did not
           anticipate finding any errors; consequently, we would not need to project our results.
        C. Selected a random sample of 30 ACS levies from the population of 656,517 levies
           issued between October 1, 2004, and June 30, 2005, from an extract of the ACS
           database of open cases as of January 2006. We analyzed Master File transcripts and
           the ACS record history for the sample cases selected and verified that taxpayers had
           been advised of their right to a hearing at least 30 days prior to any levy action. We
           did not use statistical sampling because, based on prior years’ testing, we did not
           anticipate finding any errors; consequently, we would not need to project our results.

1
  26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
2
  The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
returns from delinquent taxpayers who have not complied with previous notices.
3
  The ICS is an automated system used to control and monitor delinquent cases assigned to revenue officers in the
IRS field offices.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 6
                 Fiscal Year 2006 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



      D. Validated data from the ACS and ICS by relying on Treasury Inspector General for
         Tax Administration Data Center Warehouse site procedures that ensure data received
         from the IRS are valid. Various procedures are performed to ensure the Central site
         receives all the records in the ACS, ICS, and IRS databases. In addition, we scanned
         the data for reasonableness and are satisfied that the data are sufficient, complete, and
         relevant to the review. All the levies identified are in the appropriate period, and the
         data appear logical.
II.   Determined whether manual levies issued by revenue officers and ACS function
      personnel complied with legal guidelines in 26 U.S.C. § 6330.
      A. Identified any references to manual levies issued between October 1, 2004, and
         June 30, 2005, by querying the history narrative text field of the ICS open case
         inventories and the ACS open case inventory. We identified and reviewed a
         judgmental sample of 44 manual levies from the open ICS cases and a judgmental
         sample of 25 manual levies from the open ACS cases. We used judgmental sampling
         because there is no way to identify the population of manual levies issued.
         1. Requested complete case history files (history query) for all cases containing
            references to manual levies identified in step II.A.
         2. Reviewed case history documentation and identified whether a revenue officer or
            an ACS function employee (customer service representative) had issued a manual
            levy.
         3. Analyzed Master File transcripts and ACS and ICS history files to determine
            whether taxpayers were provided at least 30 days’ notice prior to any levy action
            initiated by the IRS.




                                                                                           Page 7
                 Fiscal Year 2006 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



                                                                              Appendix II

                 Major Contributors to This Report

Daniel Devlin, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Parker F. Pearson, Director
Lynn Wofchuck, Audit Manager
Cristina Johnson, Lead Auditor
Marcus Sloan, Auditor




                                                                                       Page 8
                 Fiscal Year 2006 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 9
Fiscal Year 2006 Statutory Review of Compliance With Legal
              Guidelines When Issuing Levies



                                               Appendix IV

  Example of Levy (Form 668-B)




                                                      Page 10
